HHS/OIG-Audit-"Review of Compensation Pratices for Executives and Teachers at Child Development Resources of
Ventura County, Inc.,"(A-09-04-00051)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Compensation Practices for Executive and Teachers at Child Development Resources of Ventura County, Inc.," (A-09-04-00051)
December 23, 2004
Complete
Text of Report is available in PDF format (912 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Child Development Resources of Ventura County,
Inc. (CDR) compensation practices for five executives and Head Start teachers were reasonable and consistent with Federal
requirements.  Four of the five executives were paid more than the average compensation for comparable services in
the local area, whereas the Head Start teachers were paid less.  CDR did not have a current wage comparability study
and did not use an available nonprofit wage and benefit survey to adjust its executive compensation.  Also, CDR did
not use quality improvement funds awarded by the Federal Government to increase teacher compensation.  We recommended
that CDR:  (1) take corrective actions to ensure that executive compensation meets Federal requirements; (2) develop
written procedures and guidance; (3) improve oversight of quality improvement funds; and (4) ensure that teachers are provided
salary increases, consistent with Federal requirements.  CDR concurred with our recommendations.  However, CDR
disagreed with our finding that it did not have a current wage comparability study, and questioned whether it was reasonable
for us to compare teacher positions at local area school districts with teacher positions at CDR.